REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
          NEW ENGLAND REGION
    REPORT NUMBER A050009/T/1/Z05014

             MAY 18, 2005
 non-compliance with the competition requirements of Section 803 of the National
Defense Authorization Act for fiscal year 2002. However, we did find 2 new orders that
had procurement compliance deficiencies, but with limited potential financial impact; 1
new order with procurement deficiencies without potential financial impact; and on 2
existing orders, remedial action was not taken on prior deficiencies. As directed in the
Ronald Reagan National Defense Authorization Act for fiscal year 2005, because the
CSC is not fully compliant, we are required to perform a subsequent audit of CSC
contracting practices by March 2006 to determine whether the CSC has become
compliant.

Procurement Compliance Deficiencies: We identified a $3.1 million schedule order for
Defense intelligence support that did not undergo a best value determination. The CSC
complied with competition requirements and received proposals, but FTS did not
analyze the proposed labor mix or level of effort in its evaluation of price. We also
identified that an $81,000 order for computer hardware and software support to the
users of office computer systems was awarded without a best value determination being
made by the Contracting Officer.1

Other Procurement Compliance Deficiencies: An order of $131,000 for the purchase of
software lacked an acquisition plan as required by the FAR and by the national controls
outlined by FTS Central Office.

Existing Order Procurement Deficiency: We identified 2 existing orders that had prior
deficiencies where measures were not taken to remediate these deficiencies:

    •   An original contract was awarded for $12 million for a multi year initiative to
        upgrade wide area network infrastructure to support IT modernization. The file
        for the original award did not show that the CSC performed any pricing analysis
        on the original scope of work, and the procurement did not have a T&M
        determination of findings. The CSC modified the contract by $3.7 million for
        additional work without any remedial actions on the original contract award.

    •    A $37 million existing task order did not undergo a best value determination.
        The CSC complied with competition requirements but FTS did not analyze the
        proposed labor mix or level of effort in its evaluation of price. Also, there was no
        justification for the use of a T&M contract.

Conclusion

While not fully compliant, we found that the New England Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.    The CSC has implemented national controls identified in the
Administrator’s Get It Right Initiative and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in 3 new orders and
1
 This procurement was an 8(a) award and therefore did not require competition, although the best value
determination should have been documented.


                                                 2
                                                           Attachment 2
                  REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                          CLIENT SUPPORT CENTER
                    CONTROLS AND TESTING OF CONTROLS
                            NEW ENGLAND REGION
                      REPORT NUMBER A050009/T/1/Z05014

                                REPORT DISTRIBUTION
                                                                 copies

Regional Administrator (1A)                                         3

Commissioner, Federal Technology Service (T)                        1

Assistant Inspector General for Auditing (JA)                       2

Assistant Inspector General for Investigations (JI)                 1
